No. 20-875
In the

Supreme Court of the United States
SOK KONG, TRUSTEE FOR NEXT-OF-KIN OF MAP KONG,
DECEDENT,
Petitioner,
v.
CITY OF BURNSVILLE, MAKSIM YAKOVLEV, JOHN MOTT, AND
TAYLOR JACOBS,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit

Certificate of Compliance

As required by Supreme Court Rule 33.1(h), I hereby certify that I am a member
of the bar of this Court and that (1) the Motion for Leave to File a Brief as Amicus
Curiae contains 257 words; and (2) the Brief of Professor Bryan Lammon as Amicus
Curiae Supporting Petitioner contains 4,778 words, excluding the parts of the
document exempted by Supreme Court Rule 33.1(d).
Respectfully submitted,

Bryan Lammon
Amicus Curiae & Counsel of Record
UNIVERSITY OF TOLEDO COLLEGE OF LAW*
2801 W. Bancroft St.
Toledo, Ohio 43606-3390
419-530-4514
bryan.lammon@utoledo.edu
January 20, 2021

* For affiliation purposes only.

